     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION



 Afghanistan’s National Solidarity Program Has Reached
     Thousands of Afghan Communities, but Faces
         Challenges that Could Limit Outcomes




                                       March 22, 2011




SIGAR Audit-11-8 Economic and Social Development / NSP
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


March 22, 2011


The Honorable Hillary Rodham Clinton
Secretary of State
The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan
The Honorable Rajiv Shah
Administrator
U.S. Agency for International Development
Mr. Earl Gast
USAID Mission Director to Afghanistan



This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) review of Afghanistan’s National Solidarity Program (NSP). The report includes
six recommendations to help ensure that U.S. and other donor contributions to NSP are used as
intended and that the program addresses challenges that could limit outcomes.

A summary of this report is on page ii. SIGAR conducted this performance audit under the authority of
Public Law No. 110-181, the Inspector General Act of 1978, as amended, and the Inspector General
Reform Act of 2008. When preparing the final report, we considered comments from the U.S. Embassy
Kabul, the World Bank, and the Afghan government’s Ministry of Rural Rehabilitation and Development.
These comments are reproduced in appendices V-VII.




Herbert Richardson
Acting Special Inspector General
 for Afghanistan Reconstruction




SIGAR Audit-11-8 Economic and Social Development / NSP                                            Page i
                                                       SIGAR Audit-11-8                                             March 2011


              SIGAR                                       Afghanistan’s National Solidarity Program Has Reached
                                                         Thousands of Afghan Communities, but Faces Challenges
                                                                        that Could Limit Outcomes
Special Inspector General for Afghanistan Reconstruction

What SIGAR Reviewed

SIGAR reviewed the multi-billion dollar National Solidarity Program (NSP) to assess the Afghan government’s ability to
manage and account for direct assistance from the United States and other international donors. This report addresses
(1) the extent and use of U.S. and other donor assistance to the NSP, (2) the level of oversight and internal controls over
donor funds, (3) whether NSP is achieving its intended results, and (4) key challenges facing NSP as it enters its third
phase. To accomplish these objectives, we collected and analyzed documents, data, contracts, and agreements from
NSP, MRRD, the World Bank, NSP facilitating partners, rural Afghan community development councils, Afghanistan’s
Control and Audit Office, USAID, and other NSP donors, including Denmark, Italy, and the United Kingdom. We
conducted our work in Washington, D.C., and in Kabul and Parwan provinces in Afghanistan, from April 2010 to January
2011, in accordance with generally accepted government auditing standards.

What SIGAR Found

International donors provided nearly all of the $1.5 billion that the NSP received in funding from June 2002 to
September 2010. The United States, the single largest donor to NSP, contributed $528 million (35 percent) of that
amount. Most NSP contributions have been made through the multilateral Afghanistan Reconstruction Trust Fund
(ARTF), which is administered by the World Bank. The majority of NSP funds (72 percent) have been used as block
grants to finance small-scale community development projects. Of the remaining 28 percent, about 19 percent has
gone to pay facilitating partners to oversee the election and training of community development council (CDC)
members, and about 9 percent has covered administrative costs.

Donor funds provided to NSP are subject to numerous oversight and internal controls implemented by the World Bank,
the Afghan government, and members of rural Afghan communities. We found that these controls provided reasonable
assurance that NSP funds would be used as intended. However, in one case, as reported by MRRD/NSP to Afghan
authorities and donors, about $2.8 million in NSP block grants were retained by a hawalla dealer and not delivered to
the intended communities in one province. MRRD, NSP, and the World Bank have taken actions to address this issue,
but it remains unresolved.

While NSP has reported meeting or exceeding most of its quantitative targets, it lacks data and reporting on one of its
primary objectives—improving local governance. Without regularly measuring improvements in this area, it is difficult
to determine the extent to which NSP has or will achieve this objective. Further, the future role of the Community
Development Councils (CDCs) as official local governance bodies remains uncertain. As the NSP enters its third phase,
the program faces several operational challenges, including delayed receipts of block grants, late payments to
facilitating partners, and expansion to insecure areas of Afghanistan.

What SIGAR Recommends

SIGAR is making 6 recommendations to help ensure that U.S. and other donor contributions to NSP are used as
intended and that the program addresses challenges that could limit outcomes. Specifically, SIGAR recommends that
the U.S. Ambassador to Afghanistan urge the Afghan government to take action to ensure that NSP funds retained by a
hawalla dealer in Paktika Province are recovered and refunded to the ARTF, strengthen the monitoring system to
measure and report on improvements in local governance, determine whether NSP-funded CDCs should become village
councils, address the challenges of delayed payments for block grants and facilitating partners, and monitor expansion
into insecure areas. In commenting on a draft of this report, the Embassy generally concurred with the report’s findings
and provided some additional information regarding the recommendations. SIGAR also considered comments from the
World Bank and MRRD. Finally, SIGAR is also conducting a broader audit of the ARTF, which is currently the principal
mechanism for providing direct assistance to Afghanistan.

                  For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil



SIGAR Audit-11-8 Economic and Social Development / NSP                                                                    Page ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
NSP Has Been Funded Almost Entirely by International Donors, of Which the
   United States Is the Largest Contributor ................................................................................................ 4
NSP Funds Are Subject to A Wide Range of Oversight Mechanisms and Internal
   Controls, but Use of A Hawalla Dealer Led to Diversion of Funds in One
   Province .................................................................................................................................................. 8
NSP Reports Meeting Quantitative Targets, but Measurement of Changes in
   Local Governance Needs Strengthening and the Future of CDCs Is Uncertain.................................... 15
NSP Faces Implementation Challenges that Could Limit Outcomes........................................................... 19
Conclusion ................................................................................................................................................... 23
Recommendations ...................................................................................................................................... 23
Comments ................................................................................................................................................... 24
Appendix I: Scope and Methodology ......................................................................................................... 26
Appendix II: NSP Reported Outputs Against Targets, 2002 - 2007 ............................................................ 29
Appendix III: NSP Facilitating Partners ....................................................................................................... 31
Appendix IV: NSP Organizational Structure ............................................................................................... 33
Appendix V: Comments From U.S. Embassy Kabul .................................................................................... 34
Appendix VI: Comments From the World Bank ......................................................................................... 37
Appendix VII: Comments From Afghanistan’s Ministry of Rural Rehabilitation
   and Development/National Solidarity Program ................................................................................... 39


TABLES

Table 1: NSP Contributions by Donor Category, 2002 to 2010 .................................................................... 4
Table 2: Total U.S. Contributions to NSP Since 2002 ................................................................................... 5
Table 3: NSP Costs by Expenditure Category ............................................................................................... 7
Table 4: NSP Annual Expenditures, SY1383-1388 ........................................................................................ 7
Table I: NSP Reported Outputs Against Targets, 2002 – 2007................................................................... 29
Table II: NSP Facilitating Partners, as of August 2010 ................................................................................ 31


FIGURES

Figure 1: NSP Funding Flows and Programmatic Linkages .......................................................................... 3




SIGAR Audit-11-8 Economic and Social Development / NSP                                                                                                Page iii
Figure 2: Sectoral Allocation of NSP I and NSP II Block Grant Funding ......................................................... 6
Figure 3: Map of Afghanistan, Showing NSP Coverage by District ............................................................ 16
Figure I: NSP Organizational Structure, as of August 2010 ......................................................................... 33


ACRONYMS

ANDS                          Afghanistan National Development Strategy
ARTF                          Afghanistan Reconstruction Trust Fund
CAO                           Control and Audit Office
CDC                           Community Development Council
CDP                           Community Development Plan
DAB                           Da Afghanistan Bank
FCPRTF                        Food Crisis Policy Response Trust Fund
FMA                           Financial Management Agent
IDA                           International Development Association
IDLG                          Independent Directorate of Local Governance
JSDF                          Japanese Social Development Fund
MoF                           Ministry of Finance
MRRD                          Ministry of Rural Rehabilitation and Development
NGO                           Non-governmental organization
NSP                           National Solidarity Program
SIGAR                         Special Inspector General for Afghanistan Reconstruction
USAID                         U.S. Agency for International Development




SIGAR Audit-11-8 Economic and Social Development / NSP                                                                       Page iv
    Afghanistan’s National Solidarity Program Has Reached thousands of Afghan
          Communities, but Faces Challenges that Could Limit Outcomes


The National Solidarity Program (NSP), identified in Afghanistan’s National Development Strategy as the
government’s principal community development program, is a multi-billion dollar community
development and local governance program managed by the Afghan Ministry of Rural Rehabilitation
and Development (MRRD). It is funded primarily through the multilateral Afghanistan Reconstruction
Trust Fund (ARTF) which is administered by the World Bank. 1 From June 2002 to September 2010, U.S.
contributions to the NSP totaled about $528 million, making the United States the single largest donor.
ARTF contributions flow through the Afghan national budget and provide a means by which the United
States and other donors can channel development assistance directly through the Afghan government.
During the 2010 donor conferences in London and Kabul, the U.S. government, along with other
members of the international donor community, committed to channeling at least 50 percent of
development assistance through the national budget of the Afghan government. Achieving this goal will
depend to a large degree on whether the Afghan government is able to manage and account for the
donor funds it receives for programs such as the NSP. We are also conducting a broader audit of the
ARTF, which is currently the principal mechanism for providing direct assistance to Afghanistan.

This report includes the results of SIGAR’s audit to (1) identify the extent and use of U.S. and other
donor assistance to the NSP, (2) assess the level of oversight and internal controls over donor funds,
(3) determine whether NSP is meeting its targets, and (4) highlight key challenges facing NSP as it begins
its third phase. This report is part of a series of audits by SIGAR to address U.S. efforts to build Afghan
capacity for enhancing accountability and preventing corruption. To accomplish these objectives, we
collected and analyzed documents, data, contracts, and agreements from NSP, MRRD, the World Bank,
NSP facilitating partners, community development councils, and Afghanistan’s Control and Audit Office
(CAO). 2 We reviewed a random sample of NSP files maintained at NSP headquarters in Kabul to verify
that implementation procedures were followed, and reviewed independent evaluations of the NSP and
facilitating partners. We also interviewed officials from the U.S. Agency for International Development

1
  The ARTF was established in 2002 to provide a vehicle for international donors to pool resources and coordinate
their support for the reconstruction of Afghanistan. Donor contributions enable the ARTF to finance both the
essential operating costs of the Afghan government (recurrent cost window) and key national programs (such as
NSP) under the Afghan National Development Strategy (investment window). The ARTF is governed by a
management committee, consisting of representatives of the Asian Development Bank, Islamic Development Bank,
UNDP, Afghanistan’s Ministry of Finance, and the World Bank, with day-to-day administration of the fund
performed by the World Bank. A monitoring agent has been appointed by the World Bank to ensure proper
fiduciary management. A donor committee is regularly convened to discuss the management and administration
of ARTF and to provide policy guidance.
2
 As Afghanistan’s Supreme Audit Institution, the CAO is responsible for auditing the financial matters of the
government, including international donor funds channeled through the Afghan government.

SIGAR Audit-11-8 Economic and Social Development / NSP                                                          Page 1
(USAID), the U.S. Embassy in Kabul, the World Bank, the Asian Development Bank, and the United
Nations Assistance Mission in Afghanistan. In addition, we met with officials representing other donors
to the NSP, including Denmark, Italy, and the United Kingdom. Further, we met with Afghan
government officials who manage the program, as well as with officials from 9 of NSP’s 28 facilitating
partners. We conducted our work in Washington, D.C., and in Kabul and Parwan provinces in
Afghanistan, from April 2010 to January 2011 in accordance with generally accepted government
auditing standards. A discussion of our scope and methodology is included in appendix I.


BACKGROUND

In 2003, the Afghan government launched the NSP to lay the foundation for a sustainable form of
inclusive local governance, rural reconstruction, and poverty alleviation. The primary objectives of the
NSP are to build local governance by setting up community development councils (CDCs) and training
them to manage small-scale projects funded by block grants. NSP activities are grouped under four
program elements:

    1. Governance: assisting communities in establishing inclusive governance through democratic
       elections, reaching consensus on priorities and corresponding activities, and developing
       projects.

    2. Capacity building: building the capacities of community members and community development
       councils in consensus building, financial management, operations and maintenance, and
       monitoring.

    3. Community block grants: providing block grants to communities to fund NSP-approved projects.

    4. Linkages and service provision: linking CDCs to government agencies, non-governmental
       organizations, and donors to improve access to services and resources.

The NSP is being implemented in 351 of Afghanistan’s 398 districts and is located in all 34 provinces.
The NSP contracts with facilitating partners (international and local non-governmental organizations) to
work in specific districts. These partners are responsible for mobilizing communities to undertake
development activities and promoting community adherence to NSP guidelines. Patterned after an
earlier community empowerment and public works project 3 managed by MRRD, the NSP has been
implemented in phases: NSP I, from May 2003 to March 2007; NSP II, from April 2007 to September
2011; and NSP III, from September 2010 to September 2015. Expected funding for all three phases will
total about $2.7 billion, excluding community contributions. Community contributions, mandated as
part of NSP implementation, must equal at least 10 percent of project costs. Contributions can be in
cash, labor, or in-kind.

Managed by MRRD, the NSP employs over 800 Afghan staff members at its headquarters in Kabul and in
provincial offices throughout Afghanistan. NSP management oversight is provided by an inter-


3
 The Emergency Community Empowerment and Public Works Project, which began in 2002, formed the
foundation of what would later become NSP.

SIGAR Audit-11-8 Economic and Social Development / NSP                                             Page 2
ministerial project steering committee chaired by Afghanistan’s second vice-president, and is subject to
requirements tied to international funding sources.

NSP activities are implemented by 28 facilitating partners, 4 made up of 26 non-governmental
organizations (6 Afghan and 20 international), a U.N. agency, and a U.S. for-profit company. NSP staff
members supervise the work of the facilitating partners, which are responsible for program facilitation
at the village level. Elected members of CDCs manage block grants and implement community
development projects, which are based on community development plans. The block grants are
provided from NSP contributions transferred to CDCs by the Ministry of Finance (MoF) principally
through Afghanistan’s central bank (Da Afghanistan Bank), but occasionally through traditional hawalla 5
dealers (see figure 1).


Figure 1: NSP Funding Flows and Programmatic Linkages

                                                                                 Project Steering
                             Bilateral Funds                 World Bank            Committee




                                                                                        Funds

                  Da Afghanistan Bank
                     (float accounts           Ministry of                              Programmatic
                                                                      MRRD/NSP
                  managed by financial          Finance
                  management agent)                                                     Linkages



                                Hawalla
                                Dealers



    Operational                                               Facilitating
     Expenses                 CDCs                             Partners




As of January 31, 2011, the NSP reported the following achievements:

      •       26,110 communities mobilized;

      •       53,610 project proposals funded; and

      •       $793 million in block grants disbursed to CDCs.

In its third phase, the NSP is slated to reach an additional 15,800 communities, many of which are in
insecure areas not covered by the two earlier phases. There are also plans to provide 11,900 of the
CDCs already mobilized under the first two phases with a second round of block grants.




4
  This represents the number of facilitating partners at the time of our audit. The number has increased over time
and can expand or contract according to need and performance. See appendix III for a complete list of NSP
facilitating partners.
5
 Hawalla dealers are individuals engaged in an informal money transfer system common in the Middle East and
South Asia.

SIGAR Audit-11-8 Economic and Social Development / NSP                                                      Page 3
NSP HAS BEEN FUNDED ALMOST ENTIRELY BY INTERNATIONAL DONORS, OF WHICH THE
UNITED STATES IS THE LARGEST CONTRIBUTOR

All NSP funding, with the exception of community contributions, 6 has been provided by international
donors. As of September 2010, international donor contributions to NSP totaled more than $1.5 billion.
As shown in table 1, most NSP contributions were made through the ARTF, a multilateral trust fund
administered by the World Bank. Another major source of NSP funding has been the World Bank’s
International Development Association (IDA).7 In addition to multilateral trust funds and grants,
international donors have provided about $100 million in bilateral contributions directly to NSP.


       Table 1: NSP Contributions by Donor Category,
       2002 to 2010
                                                              As of
       Funding Source                               September 2010
                                                       (USD millions)

       ARTF (administered by World Bank)                       $940
       IDA (World Bank)                                        $436
       Bilateral Donors                                        $100
       Japanese Social Development Fund                         $42
          (administered by World Bank)
       Food Price Crisis Response Trust Fund                      $8
         (administered by World Bank)
       Total                                                 $1,526
       Source: SIGAR analysis of ARTF Monthly Report for September 22,
       2010.



The United States Is the Largest Donor of NSP Funds

The United States has contributed over one-third of all NSP international donor funding, making it the
largest donor. 8 As of September 2010, the United States had provided about $528 million to the NSP
through direct and indirect funding (see table 2). This represents about 35 percent of total international
donor contributions to NSP. The majority of U.S. funding for the NSP has been through the ARTF. U.S.
contributions to the ARTF are made through a grant agreement 9 between USAID and the World Bank.


6
 According to World Bank officials, community contributions to NSP projects were supposed to be 10 percent,
though they have averaged 17 percent.
7
 IDA is the part of the World Bank that helps the world’s poorest countries. IDA complements the World Bank’s
other lending arm—the International Bank for Reconstruction and Development, which provides middle-income
countries with capital investment and advisory services.
8
 Canada is currently the second largest donor, providing contributions of $148.5 million--$147.4 million through
the ARTF for NSP and $1.1 million bilaterally.
9
    USAID Grant Agreement No. EEE-G-00-02-00025-00, dated June 20, 2002.

SIGAR Audit-11-8 Economic and Social Development / NSP                                                     Page 4
The grant agreement, signed in 2002, provided an initial $5 million in support of the ARTF. As of
September 2010, the agreement had been modified 35 times, raising the total amount of U.S.
contributions to $972 million. Of that amount, $490 million was provided to the NSP based on
preferencing language in the grant modifications. Donors use preferencing language to designate the
specific ARTF-funded investment programs they wish to support. Although the World Bank does not
guarantee that these preferences will be honored, USAID officials confirmed World Bank statements
that showed all U.S. preferences for NSP have been honored by the ARTF.


        Table 2: Total U.S. Contributions to NSP Since 2002
                                                                    Total U.S.
        Type of Funding                                  Contributions to NSP
                                                               (USD millions)

        U.S. Preferences to NSP through ARTF                         $490
        U.S. Portion of IDA Grants to NSP                              $37
        Bilateral U.S. Funding to NSP                                   $1
        Total                                                        $528
        Source: SIGAR analysis of USAID and World Bank data as of September 23,
        2010.

U.S. funding for the ARTF and the NSP has been provided, for the most part, from Economic Support
Fund appropriations based on congressional directives. For example, the 2009 Supplemental
Appropriations Act 10 directed that not less than $70 million of Economic Support Funds be made
available for NSP. The 2010 Consolidated Appropriations Act 11 directed that another $175 million of
Economic Support Funds be made available to NSP. USAID met these directives by providing $140
million and $175 million in Economic Support Funds for fiscal years 2009 and 2010, respectively. In
addition, the 2010 National Defense Authorization Act authorized the U.S. Secretary of Defense to
transfer up to $50 million of Commander’s Emergency Response Program funds to the U.S. Secretary of
State for NSP. This brought the total U.S. contribution for fiscal year 2010 to $225 million.

In addition to USAID contributions to the ARTF, we estimate that the United States has contributed
another $36.7 million to NSP through its contribution to the World Bank’s IDA. Although the World
Bank does not track assistance by donor to specific IDA-funded programs, we developed a methodology
with the Office of the U.S. Executive Director at the World Bank for estimating U.S. IDA contributions to
NSP. 12 In addition to its contributions through the World Bank-administered ARTF and IDA, the United
States also provided about $1.1 million in direct funding for NSP programming in Kandahar province.
These funds were provided bilaterally, rather than through the ARTF, as the ARTF does not accept funds
designated for specific geographic areas.


10
     Public Law 111-32, Supplemental Appropriations Act, 2009.
11
     Public Law 111-117, Consolidated Appropriations Act, 2010.
12
  According to the Office of U.S. Executive Director to the World Bank, the estimated U.S. portion of the IDA grants
provided to NSP was approximately 8.4 percent of the total amount of $436 million of IDA grants provided from
2002 to 2010. Thus, the U.S. portion was calculated to be about $36.7 million.

SIGAR Audit-11-8 Economic and Social Development / NSP                                                       Page 5
NSP Funds Are Primarily Used for Community Block Grants

The majority of NSP funds (about 72 percent) are used for community block grants. Community block
grants finance small development projects managed by CDCs. Projects are typically for infrastructure
development in areas such as transportation (e.g., tertiary roads), water supply and sanitation, small-
scale electric power, and irrigation (see figure 2). Block grant amounts, limited to $60,000 per
community, are determined by the number of families in a given community (up to 300 families,
multiplied by $200 per family).


    Figure 2: Sectoral Allocation of NSP I and NSP II Block Grant Funding




                                                    Other, 9%

                                Irrigation,
                                    18%



                                                                     Transport,
                                                                        25%

                   Water Supply
                       and
                    Sanitation,
                       24%

                                                             Education,
                                                                11%

                                         Power, 13%



    Source: SIGAR analysis of World Bank data as of January 2011.
    Note: “Other” category includes projects in agriculture, health, livelihoods, public building,
    and emergency response.


Approximately 19 percent of NSP funds pay for facilitating partner costs, which include overseeing the
election and training of CDC members, providing assistance to draft community development plans, and
implementing projects. The remaining 9 percent covers the administrative costs of NSP staff, including
salaries, offices, benefits, travel, and general operating expenses (see table 3).




SIGAR Audit-11-8 Economic and Social Development / NSP                                               Page 6
    Table 3: NSP Costs by Expenditure Category
                                                NSP I & II
    Expenditure Category
                                             (percentage)

    Community Block Grants                             72
    Facilitating Partner Costs                         19
    NSP Administration                                  9
    Total                                            100
    Source: SIGAR analysis of NSP Finance Department
    data.

Since 2005, the NSP’s financial statements have been audited on an annual basis by Afghanistan’s
supreme audit agency, the Control and Audit Office (CAO). The audited statements show that, as of
March 20, 2010, the NSP had expended a total of $789 million. See table 4 for reported annual
expenditures.


    Table 4: NSP Annual Expenditures, SY1383-1388
                      Annual Expenditures

    Year                                          USD millions

    SY 1383                                                 $26
    SY 1384                                                 $48
    SY 1385                                              $123
    SY 1386                                              $239
    SY 1387                                              $196
    SY 1388                                              $157
    Total                                                $789
    Source: SIGAR analysis of annual NSP financial statements
    audited by CAO.
    Note: The Afghan solar year (SY) typically ends on March 20.
    The period in Table 4, SY1383-1388, equates to March 20,
    2004 – March 20, 2010. All expenditures in the table
    occurred during NSP I and NSP II.

According to NSP III documentation, the proposed budget for the final phase of the program from
September 2010 to September 2015 is about $1.5 billion, or about $300 million per year. This
represents a substantial increase in planned expenditures over prior years and provides additional
funding opportunities for donors.




SIGAR Audit-11-8 Economic and Social Development / NSP                                               Page 7
NSP FUNDS ARE SUBJECT TO A WIDE RANGE OF OVERSIGHT MECHANISMS AND INTERNAL
CONTROLS, BUT USE OF A HAWALLA DEALER LED TO DIVERSION OF FUNDS IN ONE PROVINCE

The NSP operates under a series of oversight mechanisms and internal controls that are detailed in its
implementing documentation, contracts, agreements, and operational manual. International standards
for internal control and auditing help organizations provide reasonable assurance that objectives
relating to effectiveness, accountability, compliance, and safeguarding of resources are being
achieved. 13 However, those same standards also indicate that an effective internal control system, no
matter how well conceived and operated, can provide only reasonable – not absolute – assurance to
management about the achievement of an entity's objectives. World Bank mechanisms provide one
level of oversight through management committees, supervision missions, and regular reporting.
Because NSP funds are channeled through the Afghan national budget, they are subject to government-
wide controls, including annual financial audits. Further, MRRD/NSP officials manage facilitating
partners and activities that must follow the NSP operational manual. Communities provide oversight of
NSP activities by participating in CDC elections, following NSP spending information posted on
signboards, and social audits. We found that these controls provided reasonable assurance that NSP
funds were used as intended. While our tests for compliance with documentation requirements were
positive, MRRD/NSP identified fraudulent activity involving about $2.8 million in NSP funds that
occurred in a particular Afghan province even though all the required paperwork had been submitted
and filed.

World Bank Agreements and Policies Mandate Oversight of NSP

The NSP is subject to a wide range of internal control mechanisms mandated by the World Bank in grant
agreements and its own policies to monitor and account for donor funds. For example, donor funds
provided to the NSP through contributions to the ARTF are subject to several oversight mechanisms
applied to those trust funds by the Afghan government and the World Bank. Afghan public expenditures
are subject to government-wide controls that are periodically assessed by the World Bank. 14 ARTF funds,
which are a sub-set of on-budget funds, are subject to additional fiduciary oversight by the World Bank
and its agents. These additional oversight mechanisms include management and donor committees,
periodic mid-term reviews, preparation and supervision missions conducted by the World Bank, and


13
  According to the International Organization of Supreme Audit Institutions’ Guidelines for Internal Control
Standards for the Public Sector, internal controls are defined as an integral process that is affected by an entity’s
management and personnel and are designed to address risks and provide reasonable assurance that, in pursuit of
the entity’s mission, objectives relating to effectiveness, accountability, compliance, and safeguarding of resources
are achieved.
14
  According to the World Bank, these controls comprise a framework whereby public funds in the Afghan
government are controlled through a single budget that is prepared in an orderly and transparent manner,
approved by Parliament, and under which all uses are permitted only against due approvals of the appropriation
holder. Accounting and payments for all transactions under the budget is concentrated in the Treasury
Department of the Ministry of Finance, which has contributed to sound financial reporting. This reporting is
subject to oversight by the Parliament and the external auditor. See “Afghanistan: Public Financial Management
Performance Assessment” (World Bank and United Kingdom’s Department for International Development, June
2008).

SIGAR Audit-11-8 Economic and Social Development / NSP                                                        Page 8
specific financial and procurement requirements included in the grant agreements between the World
Bank and the Afghan government that call for periodic financial reporting, including annual financial
audits of NSP expenditures.

The World Bank’s governance and fiduciary framework for the ARTF, including NSP, indicates that
separate donor agreements set out the fiduciary and management responsibilities of the World Bank in
its role as administrator of the fund. 15 The World Bank is responsible for tracking contributions and
maintaining records and accounts of the trust fund. The ARTF management committee, consisting of
representatives of the Asian Development Bank, the Islamic Development Bank, the UN Development
Program, the World Bank, and the Afghan Ministry of Finance (MoF) 16 meets monthly to make resource
allocations and report to donors on the use of funds. Also, an ARTF donor committee is responsible for
meeting quarterly, reviewing ARTF progress, and guiding the management committee on ARTF
allocation strategies.

The ARTF management committee meets monthly to discuss ARTF issues, including NSP problems and
solutions. For example, minutes from a September 2010 management committee meeting reported
that members raised concerns about the low disbursement rate for NSP II and whether the program
could absorb an increase in funding; the accessibility of 10,000 communities not yet reached by the
program; the costs of CDC capacity building; the impact and sustainability of the investment; and links
with other national programs. Based on these discussions, the management committee approved in
principle the provision of $250 million for NSP. However, the chair noted that the World Bank would
not sign the agreement until after a supervision mission to ensure that outstanding issues were
addressed to the satisfaction of the World Bank.

A committee of ARTF donors also provides oversight to help ensure that NSP funds are used for
intended purposes. For example, minutes of a November 2009 ARTF donor committee meeting
indicated that the NSP director presented the findings of an MRRD investigation into media allegations
that 40 percent of NSP funds in Farah province were going to the Taliban. According to the minutes, the
donors welcomed the findings of the investigation, which concluded that the allegations were baseless.
U.S. oversight on this committee is provided by a USAID staff member assigned as the Grant Officer’s
Technical Representative for the ARTF cooperative agreement. The official monitors U.S. funds
contributed to ARTF, including those for NSP. The USAID official reported attending ARTF donor
committee meetings and reviewing ARTF reports. USAID’s active participation in the committee was
confirmed by the World Bank.

As a condition of accepting World Bank funds, the Afghan government agreed to periodic reviews of the
use of those funds. The World Bank conducted a completion review of NSP I in 2007 and undertook a
mid-term review of NSP II in 2008 to determine the status of the program and identify areas of focus for
an interim supervision mission scheduled for September of that year. The review resulted in two
principal recommendations—to improve the quantity and quality of NSP services, as well as their cost


15
 The World Bank produces quarterly and annual reports for ARTF that provide financial and program updates on
NSP for ARTF donors and discuss implementation challenges.
16
 The MoF attended the ARTF management committee as an observer until January 2011 when it became a full
member.

SIGAR Audit-11-8 Economic and Social Development / NSP                                                Page 9
effectiveness. In addition, the review made 30 specific recommendations. In response to the review,
NSP officials formed working groups that developed plans to address the recommendations. The
reviews are available on the World Bank’s public web site.

The World Bank also conducts supervision missions to periodically assess progress in meeting
development objectives. For example, a mission in April 2009 to Bamyan Province found that NSP was
likely to achieve its development objectives, but identified issues, including the lack of timely payments
to facilitating partners and block grants to communities, that required attention. Another mission, in
November 2009, was to take place in Badakhshan Province, but ended up going to Kandahar, a less
secure area, as suggested by USAID. A third mission took place between December 2009 and February
2010 in Kabul. The objective of the Kabul mission was to outline key strategic decisions, explore new
implementation methods, and continue formal project preparation of NSP III. The mission included
broad participation of various stakeholders, including community development councils, NSP facilitating
partners, and donors. The mission resulted in the documentation of key agreements and key tasks and
dates to be completed by NSP management.

Afghan Government Provides Oversight as Management of NSP Is Increasingly Undertaken by
Afghan Officials

Until September 2006, management of the NSP was primarily in the hands of an international oversight
consultant contracted by MRRD. After that date, management began shifting to Afghan nationals who
now fill all senior NSP positions, with the exception of the finance department whose leadership is
outsourced to an international consulting firm. According to the ARTF governance and fiduciary
framework, monitoring and evaluation is the responsibility of the implementing partner, the Afghan
government. The grant agreement between the Afghan government and World Bank for NSP II requires
MRRD to monitor and evaluate the program, submit quarterly progress reports and ensure that a
financial management system produces quarterly financial statements that are audited annually. The
agreement also includes provisions requiring MRRD to be responsible for policy and strategy
development and application, coordinating with other ministries, managing relations with facilitating
partners, approving and ensuring the quality of community projects, capacity development, and
financial management with the assistance of an external management consultant firm. Among other
things, the agreement also requires the Afghan government to maintain an inter-ministerial steering
committee to provide strategic and managerial guidance to the MRRD. Further, the agreement requires
the MRRD to carry out program activities in accordance with operational and financial management
manuals that cannot be amended or waived without World Bank approval. Finally, the agreement
places limitations on the MRRD’s procurement of goods and services, as well as its withdrawal of grant
funds, and requires the Afghan government to conduct a survey of institutional and social indicators,
impact evaluations, and evaluations of facilitating partners.

According to facilitating partners, the transfer of NSP management from international oversight
consultants to Afghan nationals is a positive development for the NSP. Afghans now hold all senior
management positions, with the exception of those in the finance department. This “Afghanization” is
in line with the reaffirmation of Afghan leadership called for by participants at the 2010 conferences in
London and Kabul. In both conferences, participants expressed support for Afghan leadership to
improve Afghanistan’s security, development, and governance.

SIGAR Audit-11-8 Economic and Social Development / NSP                                             Page 10
Since the MRRD lacked capacity and experience with community-driven development programs when
the NSP was initially designed, a management structure that included an international management
consultant that would work with NGO and UN facilitating partners was created. Once the NSP was
officially launched as a nationwide program in 2003, the first management consultant contracted was
GTZ-IS, German Technical Cooperation International Services (September 2003 to March 2007), with 17
international positions. Consulting firm Maxwell Stamp followed (April 2007 to March 2010), with 10
international positions. However, the number of NSP management positions filled by non-Afghans has
decreased significantly since then. In March 2010, the MRRD contracted with Deloitte Consulting
Overseas Projects to manage NSP’s Finance Department, but Deloitte employs only two international
personnel in that department. Afghans have been appointed to leadership roles for all other NSP units.

Facilitating partners reported satisfaction with the Afghan-led management. For example, facilitating
partners interviewed by SIGAR praised NSP management’s for both its responsiveness to issues they
raised and for the increased services provided to assist them. The increased services included the
establishment of a facilitating partner management department, monthly coordination meetings, and a
working group to discuss facilitating partner contract issues. A member of the ARTF management
committee stated that “MRRD is a government within a government and the only ministry with
functioning provincial offices and a developed core of expertise.” NSP staff in particular have developed
and carried their capacity to other ministries. The official added that higher salaries attract better
qualified people. MRRD/NSP employees are contractors, not civil servants. As such, they are paid about
five times that of civil servants. 17 Their salaries are paid entirely from donor contributions to NSP.

Program management also includes an NSP monitoring and evaluation department to oversee project
implementation. This department is responsible for coordinating the collection and reporting of data
relating to program performance indicators defined in the results framework in the NSP operational
manual. According to the head of the department, each NSP Provincial Management Unit had a
2-person team to monitor and evaluate NSP projects within their province. The information collected by
these teams is fed into the NSP management information system, which uses the information to report
on community project progress and problems.

NSP Expenditures Are Audited Annually, although Prior Audit Reports Were Not Completed in
a Timely Manner

NSP donors rely on financial audits of NSP funds to provide assurance that those funds are properly
used. The financing agreement between the World Bank and the Afghan government requires the CAO
to conduct annual financial audits of NSP financial statements. According to a prior SIGAR audit report,
the CAO relies on international consultants and advisors to conduct audits in accordance with
international auditing standards. 18




17
 The example cited was that MRRD/NSP staff would earn about $1,000 for a month, where a civil servant would
make about $200 per month.
18
  See SIGAR Audit-10-8, Afghanistan’s Control and Audit Office Requires Operational and Budgetary Independence,
Enhanced Authority, and Focused International Assistance to Effectively Prevent and Detect Corruption, April 9,
2010.
SIGAR Audit-11-8 Economic and Social Development / NSP                                                 Page 11
The CAO has audited NSP financial statements annually since 2005. Those audits, conducted in
accordance with standards issued by the International Organization of Supreme Audit Institutions, have
identified numerous issues that have been addressed and resolved by NSP management. However, the
CAO has not always issued its NSP audit reports in a timely manner. International Organization of
Supreme Audit Institutions audit standards on timeliness indicate that the audit opinion or report should
be available promptly to be of greatest use to readers and users, particularly those who have to take
necessary action. The terms of the financial agreement between the Afghan government and the World
Bank, signed on April 24, 2006, states that NSP financial statements would be audited annually and that
audited financial statements would be provided to the World Bank as soon as available, but in no case
later than 6 months after the end of the fiscal year. The CAO’s audit report for the year ending March
19, 2008 (SY 1386), was due by September 19, 2008, but was not issued until June 30, 2009, over
9 months late. Similarly, the CAO’s audit report for the year ending March 20, 2009 (SY 1387) was
issued on January 21, 2010, over 4 months later than the date stipulated by the same agreement.
According to NSP records, the audits were delayed due to the late preparation of consolidated financial
statements and the unusually long time it took to find an international public accounting firm acceptable
to the World Bank to help the CAO audit the NSP’s financial statements.

The effect of these delays was that the MRRD was unable to take timely action on audit findings that
included millions of dollars of questionable and potentially ineligible costs identified during both audits.
For example, the audit report for SY 1386 included a qualified opinion due to $6.3 million in potentially
ineligible or unsupported costs. The audit report for SY 1387 also included a qualified opinion due to
$3.6 million in questioned costs. Further, the report for SY 1387 disclosed that more than
1,900 completed projects with approximately $25.7 million of advance payments made since 2004 took
more than one year to complete. Both audits questioned payments to the MRRD for staff members
who did not work directly for the NSP. A senior MRRD official stated that the MRRD had resolved this
issue by obtaining approval from the World Bank to pay a portion of contracted MRRD staff costs from
NSP funds. The amount allocated was $187,665 per month.

Subsequent to our audit fieldwork, SIGAR received a copy of the NSP’s audit report for SY 1388, the
annual period ending March 20, 2010. That report included an unqualified opinion and was submitted
by the CAO within the 6-month period required by the World Bank financing agreement. Consequently,
SIGAR is not including a recommendation to improve the timeliness of NSP financial audit reports.

Implementation of NSP Has Been Enhanced by Experienced Facilitating Partners

According to MRRD, NSP, and ARTF management committee members, the use of facilitating partners
with prior experience in Afghanistan provides a number of advantages:

    •   Gives the MRRD/NSP’s an ability to “buy” ready implementation capacity from organizations
        with decades-long presence in Afghanistan, established community linkages, and specific
        expertise.

    •   Provides the NSP with a continuous presence by co-locating non-NSP activities with NSP
        activities, which provides de facto additional NSP resources and allows the NSP work to continue
        during periods when facilitation payments to facilitating partners are delayed.


SIGAR Audit-11-8 Economic and Social Development / NSP                                               Page 12
    •   Builds upon the facilitating partners willingness to go to great lengths to implement the NSP,
        including traveling to remote areas on foot or by donkey, and risking their lives by working in
        insecure environments.

Facilitating partners provided the NSP with immediate capacity, outreach, and a measure of trust in the
early days of the program. The NSP management structure, on the other hand, had to be created.
Facilitating partners also provided a deeper reach into communities as they had offices in districts,
whereas the MRRD/NSP established its offices in provincial capitals and Kabul, urban areas where NSP is
not normally implemented.

Facilitating partners receive payments of fixed amounts from the NSP as compensation for facilitation
work according to specific milestones outlined in their contracts. NSP officials have conducted two
evaluations of facilitating partners. The results of the evaluations indicated that facilitating partners
with long-term experience in Afghanistan were able to become leaders in NSP facilitation because they
built upon their local experience with rural development. Moreover, they added value to a range of NSP
activities, including social mobilization.

Community Members Oversee Block Grant Spending

Communities also provide oversight of NSP funds spent in their villages through community
participatory monitoring of the use of block grants funds. During project implementation, public notice
boards announce NSP projects and funding amounts. Signboards are often posted at local mosques
where community members gather regularly. Following project completion, members of some
communities, assisted by facilitating partners, form a committee to audit NSP development projects,
explain their findings to the rest of the community, and hold CDC members to account for their
spending. While these “social” audits will be more widely introduced under NSP III, facilitating partners
reported that such audits under NSP I and II identified instances of fraud when reviewing project
receipts, including those for travel and meals of CDC members.

The high level of community involvement in NSP activities—CDC elections, social audits, and community
contributions—has resulted in a degree of local ownership of NSP-funded projects which helps
safeguard assets. Facilitating partners reported that, in some cases, community members intervened
and recovered money when block grant funds were stolen by thieves or embezzled by CDC members.
According to one facilitating partner, the Taliban are less likely to burn NSP schools because
communities defend them.

NSP Files Show Evidence of General Compliance with Operational Manual

Many of the NSP’s internal controls over implementation are detailed in its operational manual. The
operational manual guides NSP communities, CDCs, NSP facilitating partners, and NSP management in
their day-to-day implementation of the program. Mentioned specifically in the Afghan government’s
grant agreement with the World Bank, the operational manual is a legally binding document. The
manual details the program’s objectives and provides guidelines, forms, and a timeline for all
implementation processes and procedures. The operational manual is revised periodically to



SIGAR Audit-11-8 Economic and Social Development / NSP                                             Page 13
incorporate lessons learned and the program’s changing dynamics. 19 The World Bank must approve any
changes to the operational manual.

To assess NSP compliance with the operational manual, we randomly selected a sample of 62 projects,
drawn from a universe of 664 projects initiated after September 1, 2009, 20 and completed by July 29,
2010. (See appendix I for details on our scope and methodology.) For each of the 62 projects, we
reviewed administrative, accounting, and procurement files located at NSP headquarters in Kabul,
Afghanistan. We tested the files for existence and completeness, including appropriate approvals,
stamps, and signatures. We found that required forms for the sampled projects were in place and
complete more than 90 percent of the time.

Additionally, we randomly selected 10 projects from the 62 sampled projects to conduct a more detailed
review of project documentation. We found that all of the required project completion forms for the
ten projects had been completed. Due to security concerns, we were unable to visit any of the selected
project sites, but NSP officials provided us with copies of site inspection reports and photographic
evidence for nine of the projects to show that they had been completed as planned.

About $2.8 Million in NSP Block Grants Did Not Reach Intended Beneficiaries

According to a World Bank report of a supervision mission that occurred during October-November
2009, the NSP reported that a diversion of block grant funds had occurred. According to NSP records, in
June 2009, program officials became aware that approximately $2.8 million 21 in NSP funds for 295
communities in Paktika Province were retained by a hawalla dealer and not transferred to the CDCs for
whom they were intended. Despite investigations by NSP officials and interventions on the part of the
Afghan Attorney General’s Office, the hawalla dealer continues to retain the majority of these funds and
refuses to deliver them to the intended communities. 22

NSP records indicate that, contrary to the standard practice of distributing NSP block grants to
participating communities through a provincial branch of Da Afghanistan Bank, the NSP’s Finance
Department 23 agreed to make disbursements to certain communities in Paktika Province using a hawalla
dealer. This decision was based on requests from community members who found it difficult and
dangerous to retrieve cash from the bank, which was located in the provincial capital. In September
2005, a contract was finalized between the NSP Finance Department and a hawalla dealer to provide



19
     Version V, which became effective on August 15, 2009, is the current version of the operational manual.
20
  We selected projects that started after September 1, 2009, to ensure that they were implemented after the
current version of the operational manual (version V) became effective.
21
  The actual amount misappropriated was in Afghan currency (Afghanis). Fluctuations in the U.S. dollar/Afghani
exchange rate over the last three years resulted in the amount varying from $2.8 to $3.2 million.
22
  Due to its urgent nature, SIGAR informed the U.S. Ambassador to Afghanistan of this issue in December 2010
through a separate letter prior to completing this audit report.
23
  During this period, the NSP Finance Department was managed by Maxwell Stamp PLC (a British company which
was then serving as the NSP Management Support Consultant, and to whom the NSP Finance Department was
entirely outsourced at the time of the incident).

SIGAR Audit-11-8 Economic and Social Development / NSP                                                         Page 14
block grants to those communities. The contract authorized the hawalla dealer to be paid a transfer fee
of 2 to 3 percent of the amount of block grants delivered.

According to an NSP investigative report, after verifying that the hawalla dealer was retaining the funds,
the NSP pressured him to sign a detailed agreement on how he would reimburse the undelivered
money. NSP documents indicate that, under this agreement, he made initial payments equivalent to
about $122,000, but that he refused to repay the remaining amount. Additional NSP documentation
shows that the hawalla dealer received the equivalent of $84,648 in transfer fees related to the $2.8
million in undelivered block grants. According to the NSP, the MRRD has hired lawyers to follow up on
this case and to recover the funds.

NSP investigating officials concluded that although the hawalla dealer didn’t transfer the funds as
agreed, provincial government officials, private facilitating partners, and the respective community
development councils also circumvented internal controls. Although the MRRD, the NSP, and the World
Bank have taken actions to address this issue, it remains unresolved. Because NSP does not typically use
hawalla dealers to transfer block grant funds, we note that this situation appears to be an isolated case.


NSP REPORTS MEETING QUANTITATIVE TARGETS, BUT MEASUREMENT OF CHANGES IN
LOCAL GOVERNANCE NEEDS STRENGTHENING AND THE FUTURE OF CDCS IS UNCERTAIN

At the conclusion of its first phase, the NSP reported meeting or exceeding the majority of its
quantitative targets, such as the numbers of communities mobilized and projects implemented;
however, the NSP has not effectively measured progress toward its qualitative objective of improving
local governance in Afghanistan. Without obtaining data on specific indicators to track changes in local
governance, it is difficult to determine whether the NSP is making progress toward achieving its desired
outcome in this area. Additionally, it is difficult to know whether CDCs are best placed to assume the
duties of not-yet-elected local government bodies known as village councils.

NSP Reports Meeting or Exceeding Its Quantitative Targets

The NSP reported achieving, and sometimes exceeding, the majority of its quantitative targets, such as
the number of communities mobilized and projects funded, during its first phase of program
implementation. A report issued by the World Bank at the conclusion of NSP I showed that the program
had exceeded 4 important project development objectives. 24 According to the report, as of March 2007,
NSP I had resulted in the election of 10,321 CDCs compared to a target of 8,334−achieving 124 percent
of that goal. The report stated that NSP I assisted 10,082 villages prepare community development
plans, achieving 126 percent of the target of 8,000 villages. Against a goal of having 40 percent of
women participate in CDC elections, NSP I reported achieving a rate of more than 50 percent. Finally,
the target of having 90 percent of NSP I communities contributing 10 percent of project costs was
exceeded when 100 percent of communities met that mark with contributions averaging about
14.5 percent of project costs. (See appendix II for a more complete list of NSP I accomplishments.)


24
 Implementation Completion and Results Report on a Grant to the Islamic Government of Afghanistan for an
Emergency National Solidarity Program (Report No: ICR0000524), October 24, 2007, The World Bank.

SIGAR Audit-11-8 Economic and Social Development / NSP                                               Page 15
By January 2011, NSP management reported that the program had resulted in a total of 44,972 projects
completed, 25,875 villages with elected CDCs, and $793 million in block grants disbursed to CDCs.
However, final achievements against NSP II targets will not be known until the completion of NSP II
activities in September 2011.

The NSP has “mobilized,” or begun working with, communities in all 34 provinces of Afghanistan. The
NSP has projects in 361 (91 percent) of the country’s 398 districts and provincial centers. Figure 3
illustrates the extent to which the NSP has been implemented throughout the country. As indicated by
the uncolored portions of the map, NSP has not yet reached a number of districts in insecure areas.
However, NSP III is aiming for nationwide coverage by establishing CDCs in 15,800 new communities,
many of which are located in these insecure districts.


Figure 3: Map of Afghanistan, Showing NSP Coverage by District




Source: MRRD/NSP website: www.nspafghanistan.org
Note: Uncolored districts indicate the lack of CDCs. As can be seen, most of these districts are in the southern (less-secure)
areas of the country.




SIGAR Audit-11-8 Economic and Social Development / NSP                                                                   Page 16
Monitoring of Progress Toward Achieving NSP’s Governance Objective Needs Strengthening

In its “Performance Monitoring Indicators Handbook,” the World Bank defines performance indicators
as measures of impacts, outcomes, outputs, and inputs that are monitored during project
implementation to assess progress toward project objectives. According to the handbook, performance
indicators are used to evaluate a project’s success and should be integrated with the monitoring and
evaluation procedures used by the World Bank and its clients. However, the NSP has only recently
begun measuring progress toward achieving one of its primary objectives, the improvement of local
governance due to NSP activities, and relies on external evaluations for a full assessment of the
program’s impact in that area.

The results framework for NSP III proposes using assessments, surveys, and samples, conducted at
regular intervals, to measure changes in community-level governance. However, many of these
methods were not used during the earlier phases of the program. Although the NSP has been
implemented for more than seven years, the following program performance indicators were not
established until 2010:

     •   Percentage of communities that recognize CDCs as legitimate bodies;

     •   Percentage of CDCs able to perform their functional mandates in community development,
         project implementation, and conflict resolution;

     •   Percentage of women representatives on CDCs involved in decision making; and

     •   Number of CDCs that attempt to form linkages with government or non-government actors.

The NSP’s monitoring and evaluation department produces implementation and post implementation
monitoring reports, but it does not routinely collect data and report on progress toward targets
established for these indicators. Instead, the NSP relies on external evaluators to measure the impact
the NSP is making with regard to these and other performance indicators.

A mid-term evaluation of NSP I undertaken for the MRRD in 2005-06 by the University of York 25 found
that, while their composition and functions varied between communities, CDCs were emerging as
legitimate local governance institutions. However, this conclusion was based on case studies of only 18
CDCs.

The World Bank is funding research to study changes in local governance as a result of the NSP, but this
has been outside the NSP’s regular data collection and reporting systems. In 2007, the World Bank
commissioned a multi-year study to undertake an assessment of the NSP’s economic, institutional, and
social impacts. 26 While preliminary research shows that the NSP created functional village councils,
improved villagers’ access to services, and increased the engagement of women in several aspects of
community life, the indicators used to obtain these findings have not been included in the NSP’s weekly

25
  Mid-term Evaluation of the National Solidarity Programme (NSP), Afghanistan, May 2006 by the Post-War
Reconstruction & Development Unit, University of York.
26
 Information pertaining to this study, being conducted by researchers from Harvard University and the
Massachusetts Institute of Technology, can be obtained from the evaluation website at http://www.nsp-ie.org.

SIGAR Audit-11-8 Economic and Social Development / NSP                                                  Page 17
and monthly reporting. Furthermore, the NSP does not routinely collect data or report on some
indicators that could be used to track progress toward the important objective of improving local
governance. For the example, the NSP does not report on the number of signboards posted and social
audits undertaken. Nor does it report on the number of CDCs that have received and managed funds
from other government ministries, nongovernmental organizations, or other sources, although
facilitating partners report that this is occurring.

As a result of the NSP not establishing baseline indicators early in the program, and not measuring
progress under newly established indicators through regular data collection and reporting on changes in
local governance, it is difficult to determine the degree to which NSP activities have or will result in
improvements in local governance in rural Afghan communities. Moreover, while the capability of CDCs
to assume increased responsibilities in the role of village councils has reportedly improved, the body of
data to support their increased capacity does not exist.

CDCs Are Expected to Fill the Role of Village Councils, but Have Not Yet Received Authority to
Do So on a Permanent Basis

Although the MRRD, the MoF, and international donors support the conversion of CDCs to village
councils, the local government bodies described in the Afghan constitution, a new Afghan government
sub-national governance policy does not envision CDCs filling that role and proposes holding elections
for 38,000 local government bodies. The lack of available reporting on changes in local governance, as a
result of CDC creation, means the MRRD and the international community lack data to strengthen their
argument that such a conversion has merit. Moreover, if CDCs are not converted to local government
bodies, then the investment in the establishment and capacity building of CDCs was primarily for the
purposes of implementing small projects rather than to improve local governance, which was an original
objective of the NSP.

Although the Afghanistan National Development Strategy states that the role between proposed village
councils and the CDCs established under NSP would be clarified, the legal status and post-NSP future of
CDCs has never been fully clarified or finalized by the Afghan government. CDCs are not specifically
addressed in the Afghan constitution and they have no political history since they were created out of a
development project. Early NSP I language laying out the vision of CDCs described them as future
advocates for and monitors of services from sub-national government bodies. They were not described
as future governance bodies or long-term conduits of funds for services at the local level. However,
when NSP II was being planned in late 2006, the language was changed to reflect the MRRD’s vision that
CDCs would be recognized as the “lowest form of local governance, institutionalized at the village level,
in line with the Constitution.” The MRRD also proposed that CDCs be recognized as legal bodies to
harness development resources from other ministries and sources.

In 2007, CDCs were provided a basic legal framework through the Community Development Council By-
Law of SY 1385 (2007) that was approved by Presidential Order 3138. The CDC By-Law described the
purpose and working procedures of CDCs. According to the By-Law, CDC objectives were to work within
communities to improve and strengthen local governance, promote community welfare, and strengthen
a sense of solidarity. However, the By-Law did not grant CDCs the status of village council, one of the
local governing bodies specified in article 140 of the Afghan constitution. Article 140 calls for the

SIGAR Audit-11-8 Economic and Social Development / NSP                                            Page 18
establishment and election of local governing bodies, but does not specify a timeframe by which this is
to occur for Afghan villages, numbering about 38,000.

The MRRD, the NSP, and facilitating partners have considered CDCs organizations suited to assuming the
role of village councils. World Bank NSP III documentation noted that MRRD; the Ministry of Finance;
the Ministry of Agriculture, Irrigation and Livestock; and the Independent Directorate of Local
Governance (IDLG) agreed that a sustainable role for CDCs with respect to rural development would be
promoted. According to the documentation, a transformation of CDCs into village councils was
envisioned. However, the IDLG appears to have another vision for the establishment of village councils.

The 2010 Sub-national Governance Policy developed by IDLG calls for elections in 2011 for village
councils. The policy notes that village councils will, among a long list of responsibilities, design and
implement development plans, manage funds, and coordinate with line ministries, tasks similar to those
performed by CDCs. However, the policy does not call for the conversion of CDCs into village councils,
nor does it establish procedures for training elected village council members in the responsibilities for
which they will be tasked, a process that has taken about 6 months per CDC under NSP I and II. The
policy suggests that after 2011, CDCs may continue as civil society organizations, although no mention is
made of how these organizations would raise funds. Since NSP III is scheduled to run through
September 2015, it is also unclear whether village councils—if elected—would assume the functions of
NSP CDCs.

During the July 2010 Kabul Conference Communiqué, the Afghan government pledged to implement the
Sub-national Governance Policy within 12 months. However, as of October 2010, no date for village
council elections had been set, and no funding had been identified for such elections. A July 2010
Afghan Presidential Decree tasked an inter-ministerial committee, under the chairmanship of the IDLG,
to study existing councils at the district and village level and recommend a strategy for establishing sub-
national governance structures. In January 2011, the committee sent a letter to the Afghan President
proposing that CDCs be recognized officially as village councils, but only until formal elections take place.
Consequently, although it is clear that most stakeholders envision CDCs as filling the role of village
councils, they have not yet been provided authority to do so on a permanent basis.


NSP FACES IMPLEMENTATION CHALLENGES THAT COULD LIMIT OUTCOMES

The NSP faces implementation challenges from unresolved issues that were evident during the first two
phases of the NSP, as well as new challenges from program modifications under NSP III. Although
improvements have been made, delays in the receipt of block grants by CDCs and payments to
facilitating partners, continue to result in increased implementation time and costs. A new challenge for
NSP III is a plan to achieve full nationwide coverage by focusing on implementing the NSP in insecure
areas that have not yet been reached by the program.

Difficulties in Ensuring the Timely Receipt of Block Grant Funds Have Not Been Fully Resolved

According to an NSP implementation monitoring report issued in January 2011, almost 10 percent of
projects were experiencing delays due primarily to late disbursement of block grants. Facilitating
partners and senior MRRD/NSP officials confirmed that, although improvements have been made,

SIGAR Audit-11-8 Economic and Social Development / NSP                                               Page 19
delays in CDCs receiving community block grant funds are a continuing problem for the NSP. Such
delays increase the cost and time required for implementing the NSP.

Block grant transfers to communities from the MoF are normally made through Afghanistan’s central
bank, Da Afghanistan Bank (DAB). Although the DAB has expanded to all of Afghanistan’s provinces, in
part due to demand arising from the NSP, the Afghan government has not been able to guarantee that
communities will be able to access funds promptly and during a season when project implementation
can occur. Delays have resulted for several reasons. Contributions to NSP prior to 2007 were
sometimes insufficient to meet the needs of the program. Consequently, insufficient funds were
available during that period. 27 Also, several facilitating partners indicated that the MRRD/NSP and the
MoF developed cumbersome bureaucratic procedures for the release of block grants. Furthermore, the
DAB did not always have enough cash on hand, particularly during the summer months when work
could take place, in branches in remote and insecure areas.

Facilitating partners and NSP officials reported recent improvements in and steps taken to address some
of the causes of delay. A shortage of donor funding is no longer an issue. As the Afghan government’s
“flagship” program, the NSP has been able to attract increased donor contributions. The MRRD/NSP has
reportedly streamlined its requirements to decrease block grant processing to 3 days, though this is still
followed by additional processing by the MRRD and the MoF before block grant funds are transferred.
According to the World Bank, the MoF has also instituted a procedure whereby ministries can seek
approval to carry forward their unutilized budget amounts to the next year. With this approval,
ministries can continue to make payments for activities at the beginning of a new fiscal year (which is
when the working season starts) from that carry forward budget until the new fiscal year's budget is
approved by the Parliament.

Despite these improvements, MRRD/NSP officials stated that “more improvements are required,” since
processing can still take 2 months in “exceptional” circumstances. Another problem is the unavailability
of Afghani bank notes in DAB provincial branches. Facilitating partners and MRRD/NSP officials stated
that branches of DAB in remote and insecure areas receive fewer airlifts of bank notes. This leaves
branches with insufficient cash for withdrawals, even when accounts have been credited with block
grant funds.

Due to delays experienced during NSP I and II in implementing projects in some parts of Afghanistan,
MRRD contracts in 2010 provide an additional $700 and $252 respectively, per community, to
facilitating partners working in areas affected by seasonality and remoteness. The inability to ensure
that communities can access funds during the months in which work can be undertaken, such as
communities in areas that receive snowfall, leads to delays in project implementation. This is
recognized by the MRRD/NSP as a problem requiring resolution. The MRRD/NSP stated that they were
considering piloting the use of a commercial bank, instead of the central bank, for block grant transfers
in remote Uruzgan province.



27
  To help ensure that sufficient funds were readily available, NSP has implemented the use of a “float” account,
managed by its financial management agent (Deloitte), to maintain a balance of $80 million in pre-positioned block
grant funds.

SIGAR Audit-11-8 Economic and Social Development / NSP                                                    Page 20
Delays in Payments to Facilitating Partners Have Not Been Fully Resolved

According to NSP records, between March 2009 and January 2011, about 14 percent of payments to
facilitating partners occurred after they were due. Facilitating partner contracts with the NSP require
that they receive payment within 60 days of submitting an invoice, provided that the milestone against
which payment has been requested has been achieved and verified. Facilitating partners stated that the
problems with lengthy bureaucratic procedures were being addressed by the MRRD/NSP, but the
partners expressed concern about ongoing payment issues, including the difficulty in receiving payment
for their work in less secure areas where MRRD/NSP staff refuses to travel to verify the completion of
contractual milestones. Delayed payments to facilitating partners led to delays in implementing NSP
projects and financial distress for some facilitating partners.

An NSP report that tracks payments to facilitating partners showed that 266 individual payments,
totaling $35.3 million, were made during the period March 2009 to January 2011. Of those 266
payments, 37, worth $5.3 million, were paid 61-151 days after submission of an invoice.

Facilitating partners provided several reasons for the slow payments and their dissatisfaction with
facilitating partner payment management. Facilitating partners blamed the NSP generally for slow
payment processing, although some cited specific reasons for the delays: the MoF payment processing
system was slow, donors contributed to the NSP late, and, on one occasion, long-awaited funds were
transferred to the wrong account. Many facilitating partners stated that they address the problem by
using funding from other programs to remain engaged with NSP communities and keep the NSP running
while waiting for facilitation payments. One facilitating partner stated that in 2008 it was owed a total
of $2 million by the NSP and this shortfall “nearly destroyed the organization.” An Afghan facilitating
partner stated in August 2010 that the NSP owed them $600,000, which they depended on to pay their
staff.

Facilitating partner contracts further require the payment of interest for payments made 60 days later
than the original due date. An international facilitating partner reported asking the NSP to pay interest,
as required by the contractual obligation, on late facilitation payments. At the time of our audit, the
facilitating partner reported not receiving any interest payments and still being owed $1 million. The
2009 facilitating partner evaluation conducted by the NSP calculated that facilitating partners were
using up to $26 million of their own funds or those of other donors while waiting for the NSP to pay
their facilitation fees. Consequently, delayed payments to NSP facilitating partners can negatively affect
the implementation of other development programs, as well as engender poor working relations
between the facilitating partners and MRRD/NSP management.

Expansion of NSP into Insecure Areas Increases Risk, Implementation Time, and Costs

Although NSP I and NSP II were implemented in some high risk areas of Afghanistan, increasing
insecurity and the desire to expand NSP to all rural communities resulted in the development of an
insecure areas strategy, now annex G of NSP Operational Manual V. This strategy provides flexibility to




SIGAR Audit-11-8 Economic and Social Development / NSP                                            Page 21
facilitating partners and NSP management in implementing NSP in insecure areas 28 of Afghanistan. NSP
III targets 15,800 new communities, many of which are in insecure areas. The new strategy allows
facilitating partners and the MRRD flexibility in implementing certain requirements in the NSP
operational manual, including those pertaining to CDC elections, women’s participation, engineering
review, and block grant transfer.

Under the strategy, facilitating partners as well as MRRD and NSP officials are expected to have less
oversight of activities. Facilitating partners have the option of subcontracting their work to a local
nongovernmental organization or having community members serve as facilitators, rather than
requiring facilitating partners to travel to rural villages. Since facilitating partners state that long-term
engagement in communities is a key ingredient for successfully facilitating the NSP, distance facilitation
may reduce the effectiveness of NSP activities.

The insecure areas strategy also permits the use of hawalla dealers in areas where it is too difficult or
dangerous for CDC members to travel to DAB branches in the provincial capitals. The use of hawalla
dealers for delivery of block grants is a matter of concern because block grant funds misappropriated
through this mechanism are difficult to recover, as demonstrated by the problem NSP has had in
recovering about $2.8 million from a hawalla dealer in Paktika Province. According to NSP III
documentation, CDCs may, depending on the security situation, choose to use hawalla dealers to
transfer NSP funds on an exceptional basis. However, the hawalla dealers must be chosen from a list of
pre-qualified and registered hawalla dealers. Further, hawalla contracts must include risk mitigating
measures such as multiple layers of confirmation and verification of receipt of funds by the designated
representatives of the communities. To further mitigate the increased program risks in insecure areas,
NSP’s strategy introduces some new measures such as reducing the size of block grants, limiting the
types of projects, and using third-party monitors. To help offset the additional risk of working in
insecure areas, the NSP has agreed to compensate facilitating partners who agree to work in such areas
by paying them an additional $800 to $1,500 per community, depending on the level of insecurity.
However, it has been difficult to recruit facilitating partners for these areas and work proceeds slower
than in more secure areas. The insecure areas strategy was piloted through a facilitating partner in
Kandahar province in 2009-10, but work progressed slowly. Since the facilitating partner could not
monitor project progress in all districts, they set up alternate mechanisms that included a verification
committee outside the CDC and secret monitors who reported back on project progress. According to
the facilitating partner, these sources reported serious issues in three of the five districts where they
worked, including murder, kidnapping, Taliban intimidation of CDC members, and the cessation of all
work due to the lack of security.

The lack of access by oversight bodies in insecure areas also increases risk. For example, due to security
considerations the ARTF external auditors visited fewer than 20 percent of Afghan provinces in each of
the last 2 years. While alternative means may be used to monitor operations, there is no real substitute
for on-site review. The NSP’s planned expansion into insecure areas increases risk to personnel and



28
  NSP’s Insecure Areas Strategy defines “insecure areas” as districts where a considerable number of villages
cannot be accessed consistently by NSP provincial management unit and facilitating partner personnel due to
threats from, or the presence of, hostile insurgent groups or other types of armed actors.

SIGAR Audit-11-8 Economic and Social Development / NSP                                                    Page 22
resources, and will likely increase the time and cost of implementing NSP activities. These risk factors
could contribute to a failure to achieve program objectives in those areas.


CONCLUSION

The NSP is an Afghan national priority development program funded almost entirely by international
donors. The United States, as the single largest provider of NSP funding, has a vested interest in the
successful implementation of the program. Having confidence in the NSP becomes particularly
important as the United States looks for ways to increase direct assistance to the Afghan government.
The proposed increase in funding under NSP III provides an opportunity for the United States and other
international donors to use the NSP as a vehicle to meet their direct assistance goals. Numerous
international and Afghan oversight mechanisms and internal controls help provide reasonable assurance
that donated funds will be used as intended. While some NSP funds were fraudulently withheld by a
hawalla dealer, this appears to be an isolated event.

The program has made progress in providing local governance training and development funding to
thousands of rural communities in the more secure districts of Afghanistan. Less certain is how well the
program will work in insecure areas. Expansion into less secure areas of the country increases the level
of risk associated with NSP activities and could limit or dilute the NSP’s ability to achieve intended
outcomes.

We identified specific areas for operational improvements, such as ensuring the timely receipt of block
grants and payments to facilitating partners, and strengthening the measuring and reporting of
performance indicators to measure improvements in local governance. Documenting such changes
could help in determining the future role of community development councils.


RECOMMENDATIONS

To help ensure that about $2.8 million of NSP funds retained by a hawalla dealer in Paktika Province,
and $84,648 in unearned transfer fees paid to the same hawalla dealer, are used for their intended
purposes, we recommend that the U.S. Ambassador to Afghanistan:

    1. Urge the Afghan government to continue its efforts to recover those funds from the hawalla
       dealer and either reprogram the recovered funds for NSP activities or return the funds to the
       ARTF.

To improve internal controls associated with monitoring and accounting for donor funds and help
mitigate the potential effects of future challenges to NSP identified in this report, SIGAR recommends
that the U.S. Ambassador to Afghanistan encourage the NSP, the MRRD, and the World Bank to:

    2. Strengthen the existing monitoring system within the program and improve the quality of the
       internal monitoring reports to measure progress toward established performance indicators to
       show improvements in local governance and linkages over time between local communities and
       the Afghan government as a result of NSP activities.


SIGAR Audit-11-8 Economic and Social Development / NSP                                             Page 23
    3. Seek final determination by the Afghan government as to whether community development
       councils established by NSP should become village councils.

    4. Continue to improve the block grant transfer system to ensure that community development
       councils receive and have access to funds in a timely and consistent manner—particularly during
       the seasons in which they can implement approved projects.

    5. Strengthen and streamline the system for paying facilitating partners in accordance with NSP
       contractual obligations.

    6. Closely monitor and evaluate NSP activities in insecure areas to determine whether the greater
       flexibility in applying internal controls results in losses of NSP funds or the failure to achieve
       program objectives.


COMMENTS

U.S. Embassy Kabul, the World Bank, and MRRD provided written comments on a draft of this report.
See appendices V through VII. Both the World Bank and the MRRD also provided technical comments,
which we have incorporated, as appropriate.

In its response to a draft of this report, the Embassy generally concurred with the report’s findings and
provided some additional information regarding several of the recommendations as well as some
technical changes that we have incorporated. (The Embassy did not specifically comment on
recommendations four and five.) Regarding our recommendation to collect the NSP funds from the
hawalla dealer, it noted that a number of efforts are underway, including measures taken by the NSP
before our audit. We concur and have clarified the report section addressing the hawalla dealer to
better highlight the sequence of events and reworded the recommendation. The Embassy also noted
that steps have already been taken to strengthen the monitoring of NSP’s progress towards its
governance objective, and that the government of Afghanistan has begun taking action to recognize
CDCs as interim village councils. We welcome these actions and believe that, if the Afghan government
takes the steps it says it is going to take, they will substantially address our recommendations. Finally,
the Embassy agreed that monitoring and evaluating NSP activities in more insecure areas will present a
challenge, but questioned our assertion that “internal controls will be reduced.” As we note in the
report, MRRD and NSP officials are providing greater “flexibility” in implementing certain internal
controls because of the difficulty in operating in more insecure areas. We characterized this as
“reduced” in the draft report. We reworded the recommendation to reflect this.

The World Bank generally concurred with the report’s findings, but noted with regard to the payment of
block grants that during SY1389 (March 2010-March 2011) there were no delays in the release of
payments. However, according to the MRRD’s NSP implementation monitoring report (dated January
2011) for the quarter ending June 2010, 10 percent of the projects reviewed faced delays with the main
cause being late disbursement of block grants. Further, the World Bank stated that standard procedures
allow up to two months to process block grant payments and that the NSP maintains an $80 million float
account to ensure that adequate funds are available. We acknowledge improvements in the timeliness
of block grant payments over time and that the majority of block grants are received in a timely manner.

SIGAR Audit-11-8 Economic and Social Development / NSP                                             Page 24
However, the lack of cash in some remote branches of Da Afghanistan Bank, particularly during the
summer months, has not been resolved.

The MRRD stated that the report will be an important document to influence stakeholder opinions of
the program and potential future funding to the NSP. Nevertheless, MRRD expressed concern that
various documents and related clarifications provided to us were not taken into account. In its
comments, the MRRD provides specific explanations corresponding to each of our recommendations.
Several comments were similar to the Embassy’s and we have addressed them. Overall, however, we
believe we have accurately reflected the matters the MRRD raises. Nevertheless, the MRRD’s
comments are reproduced in full in appendix VII.




SIGAR Audit-11-8 Economic and Social Development / NSP                                         Page 25
APPENDIX I: SCOPE AND METHODOLOGY

In this review of the National Solidarity Program (NSP), we assessed (1) the extent and use of U.S. and
other donor assistance to the NSP, (2) the level of oversight and internal controls over donor funds,
(3) whether NSP was meeting its targets, and (4) key challenges facing NSP in its third and final phase.

To determine the extent and use of U.S. and other donor assistance to the NSP, we obtained funding
data and documentation from Afghanistan’s Ministry of Rural Rehabilitation and Development (MRRD),
U.S. Agency for International Development (USAID), the World Bank, and other international donors. In
particular, we reviewed the original award and 35 subsequent modifications to the Afghanistan
Reconstruction Trust Fund (ARTF) grant agreement (EEE-G-00-02-0002S-00) between USAID and the
World Bank. We also reviewed U.S. congressional appropriations containing language and earmarks
pertaining specifically to NSP. We conducted interviews with officials from various organizations to
verify the funding data and to determine how funds were used and compared funding data to annual
audit reports of NSP’s financial statements. We also reviewed a prior SIGAR audit of Afghanistan’s
Control and Audit Office and met with officials of that office who were responsible for conducting the
annual financial audits of NSP.

To assess the level of oversight and internal controls over NSP donor funds, we obtained documentation
and interviewed representatives from the World Bank, MRRD, NSP, facilitating partners, and other
donors. We obtained an understanding of the fiduciary oversight mechanisms provided by the ARTF
administrator by reviewing minutes of the ARTF management committee, as well as reports of World
Bank-funded program evaluations and supervision missions. We also reviewed ARTF quarterly and
annual reports to donors, and reports issued by the ARTF donor committee. We obtained an
understanding of financial and programmatic internal controls over NSP activities by reviewing the NSP
operational manual. To determine the level of compliance with those internal controls, we conducted a
review of NSP files for 62 randomly selected NSP projects initiated after September 1, 2009 (the
implementation date for the latest version of the operational manual) and completed prior to July 29,
2010 (to ensure that the projects had ended). The sample projects were randomly selected from a
universe of 664 projects meeting the pre-selection criteria. The universe data were provided in an Excel
spreadsheet by the head of NSP’s Management Information System Department. We verified the
accuracy of the data by reviewing scanned copies of the randomly selected project files and comparing
the data to those files. The sample selection was drawn using the Excel random number generator after
determining that a sample size of 62 projects was sufficient to obtain a 90-percent confidence level with
an error rate of plus or minus 10 percent drawn from a universe of 664 projects. For each of the 62
projects, we reviewed administrative, accounting, and procurement files, located at NSP headquarters in
Kabul, Afghanistan. We tested the files for existence and completeness, including appropriate
approvals, stamps, and signatures. We interviewed the facilitating partners responsible for the 62
randomly selected projects. In all, we met with 9 separate facilitating partners covering NSP
communities in 195 districts and 14,404 villages in 26 of Afghanistan’s 34 provinces. Due to security
reasons, the audit team was unable to visit any CDCs or inspect any NSP project sites, although we
obtained completion and site visit reports for 10 randomly selected projects from NSP’s Monitoring and



SIGAR Audit-11-8 Economic and Social Development / NSP                                             Page 26
Evaluation Department. We were also unable to review any books and records at the village level, with
the exception of files for 5 of the randomly selected projects which we reviewed in NSP Provincial
Management Units in Kabul and Parwan provinces.

To determine whether NSP was achieving its intended results, we reviewed the program objectives
included in NSP program documentation and compared them with results included in progress reports
from NSP, MRRD, and the World Bank. We verified the comparative information by interviewing
officials from those and other organizations, including USAID, and other international donors, including
the Danish Embassy, the United Kingdom’s Department for International Development, the Asian
Development Bank, the Italian Cooperation Office, and the United Nations Assistance Mission to
Afghanistan (UNAMA), as well as nine separate NSP facilitating partners. These facilitating partners
included the Afghanistan Rehabilitation and Education Program, Bangladesh Rural Advancement
Committee, Coordination of Humanitarian Assistance, Aga Khan Foundation, International Rescue
Committee, Sanayee Development Organization, Mission d’Aide au Développement des Economies
Rurales Programme Afghanistan, UN-Habitat, and Danish Committee for Aid to Afghan Refugees. We
also reviewed program evaluations conducted by the World Bank, Harvard University, University of York,
Integrity Watch Afghanistan, and the UN Development Programme.

To highlight key challenges facing NSP in its third and final phase, we interviewed key implementers and
stakeholders of NSP, including the Minister of MRRD; the Deputy Minister, Programmes, MRRD; NSP
Executive Director; and department heads of NSP’s Finance, Operations, Management Information
System, Monitoring and Evaluation, and Engineering Departments. We also met with the USAID official
designated to oversee USAID’s ARTF grant agreement with the World Bank and officials from the Danish
Embassy, United Kingdom’s Department for International Development, the Asian Development Bank,
the Italian Cooperation Office, and UNAMA, as well as nine NSP facilitating partners. These facilitating
partners included Afghanistan Rehabilitation and Education Program, Bangladesh Rural Advancement
Committee, Coordination of Humanitarian Assistance, Aga Khan Foundation, International Rescue
Committee, Sanayee Development Organization, Mission d’Aide au Développement des Economies
Rurales Programme Afghanistan, UN-Habitat, and Danish Committee for Aid to Afghan Refugees. We
also reviewed program evaluations conducted by the Work Bank, Harvard University, University of York,
and UNDP.

We relied on performance data reported by NSP’s management information system. To verify the
reliability of that data, we utilized the random sampling of individual projects that were reported to
have been recently completed and matched the computerized data to documentation in NSP’s paper
files. We found hardcopy evidence for all 62 of the randomly selected projects. Since we could not visit
the project sites, we randomly selected 10 of the 62 projects for a more thorough review and found
documentary evidence that all 10 projects had received monitoring site visits by NSP staff and had been
completed as intended.

Where possible, we traced reported funding data to at least two sources to confirm its reliability. We
verified expenditure data with annual financial audit reports issued by Afghanistan’s Control and Audit




SIGAR Audit-11-8 Economic and Social Development / NSP                                           Page 27
Office, after confirming that those audits were conducted in accordance with international auditing
standards promulgated by the International Organization of Supreme Audit Institutions.

We conducted work in Kabul and Parwan provinces in Afghanistan and in Washington, D.C., from April
2010 to January 2011 in accordance with generally accepted government auditing standards. These
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe
the evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. The audit was conducted by the Office of the Special Inspector General for Afghanistan
Reconstruction under the authority of Public Law No. 110-181, as amended, the Inspector General Act of
1978, and the Inspector General Reform Act of 2008.




SIGAR Audit-11-8 Economic and Social Development / NSP                                          Page 28
APPENDIX II: NSP REPORTED OUTPUTS AGAINST TARGETS, 2002 - 2007


Table I: NSP Reported Outputs Against Targets, 2002 – 2007
                                                                a                      NSP I         Total
                                                      ECEPWP
                                                                         NSP I    Outputs by    Outputs by
Output Indicators                                   outputs Dec
                                                                       Targets       Mar 31,       Mar 31,
                                                       31, 2004
                                                                                       2007          2007
Community Block Grants
                                                                                                        b
Sub-projects meeting appraisal criteria and             5,962         15,116        16,496        22,458
  receiving funds
Sub-projects completed                                     53         10,539        10,357        10,410
Block grant disbursement (in millions of dollars)       $59.3         $210.0        $224.4        $283.7
Block grant commitment (in millions of dollars)        $120.0         $304.8        $183.7        $313.7
Percentage of communities contributing at least         100%             90%          100%          100%
  10% of project cost
Number of beneficiary families (in communities        496,833       1,260,000     1,720,084     2,216,917
  that receive block grant funds)
Labor days created from NSP projects                3,827,604       9,700,000    10,590,432    14,418,036
Community Facilitation and Project Preparation
Villages with elected CDCs                              6,181         10,254        10,321        16,502
Villages with community development plans               6,181          9,432        10,082        16,263
Sub-project proposals submitted                         7,472         16,000        20,083        27,555
Percentage of women voting in CDC elections           40-80%            >40%          >40%          >40%
Communities with representation of women in             >90%            >40%           95%           95%
  CDCs (joint or separate)
Districts                                                 101            178           178           279
Provinces                                                  33             34            34            34
Number of facilitating partners                            21             NA            24            24
Capacity Building and Implementation Support
Project Management Consultant                               1              1             1             1
Community members trained in either                    27,350        393,000       408,171       472,234
  procurement, financial management, or
  operations and maintenance
                                                                                          c
Facilitating partner field staff trained                2,607          5,000         1,811          4,418
MRRD staff trained                                        714            850           263           950
External Monitoring and Evaluation
Assessment of facilitating partners                         1             NA            NA             1
External project evaluation                               NA               1             1             1




SIGAR Audit-11-8 Economic and Social Development / NSP                                               Page 29
                                                                        a                            NSP I             Total
                                                             ECEPWP
                                                                                    NSP I       Outputs by        Outputs by
Output Indicators                                          outputs Dec
                                                                                  Targets          Mar 31,           Mar 31,
                                                              31, 2004
                                                                                                     2007              2007
Source: World Bank.
Notes:
a
    Emergency Community Empowerment and Public Works Project, 2002-2004 (the foundation of NSP).
b
    The 22,458 projects were implemented by 12,270 communities (1.8 projects per community).
c
 Figures on facilitating partner and MRRD staff trained do not include staff that also attended training in the previous
period.




SIGAR Audit-11-8 Economic and Social Development / NSP                                                                     Page 30
APPENDIX III: NSP FACILITATING PARTNERS


Table II: NSP Facilitating Partners, as of August 2010
                                              NSP Facilitating Partners

                                                  Provinces in which Facilitating Partners           Interviewed
Facilitating Partner
                                                  Conducted NSP Activities in 2010                   by SIGAR
Agency for Technical Cooperation and              Baghlan, Badakhshan, Faryab, Kunduz, Takhar
Development
ActionAid International Afghanistan               Jawezjan, Kabul
Afghan Aid                                        Badakshan, Ghor, Nuristan, Samangan
Aga Khan Foundation                               Badakshan, Baghlan, Bamyan, Parwan, Takhar              X
Afghanistan National Re-Construction Co-          Uruzgan
ordination
Afghanistan Rehabilitation and Education          Paktika                                                 X
Program
Bangladesh Rural Advancement Committee            Nangarhar, Hilmand, Paktika, Badghis,                   X
BRAC                                              Samangan, Takhar
CARE                                              Baghlan, Balkh, Ghazni, Paktia, Parwan, Wardak
Coordination for Humanitarian Assistance          Balkh, Faryab, Ghor, Herat                              X
Concern Worldwide                                 Badakshan, Takhar
Danish Committee for Aid to Afghan                Badghis, Faryab, Ghazni, Herat, Laghman, Paktia,        X
Refugees                                          Parwan
Future Generation                                 Ghazni, Nangarhar
Flag International                                Ghazni , Badakhshan
German Agro –Action                               Faryab, Jawzjan, Nangarhar
Ghazni Rural Support Programe                     Baghlan, Kunduz
Interco Operation                                 Herat - Chishti Sharif district
International Rescue Committee                    Herat, Khost, Logar, Nangarhar                          X
Mission d’Aide au Développement des               Ghor, Kunar, Laghman, Nuristan                          X
Economies Rurales Programme Afghanistan
Norwegian Project Office /Rural                   Badghis, Herat, Nangarhar, Kunar
Rehanilitation Assosiation for Afghanisntan
Oxford Committee for Famine Relief                Dai Kundi
People in Need                                    Baghlan, Balkh, Nangarhar, Paktia
Partners for Social Development                   Dai Kundi
Relief International                              Kunar, Nimroz
Swedish Committee for Afghanistan                 Wardak
Sanayee Development Organization                  Kabul                                                   X
Solidarites, Aide Humanitaire d'Urgence           Samangan



SIGAR Audit-11-8 Economic and Social Development / NSP                                                        Page 31
United Nations Human Settlements Program         Balkh, Bamyan, Farah, Herat, Kandahar, Kapisa,   X
(UN-Habitat)                                     Nangahar, Panjshir, Parwan
Refugee Care for Afghnanistan                    Jawzjan , Saripul
Source: NSP Facilitating Partner Management Department data.




SIGAR Audit-11-8 Economic and Social Development / NSP                                                Page 32
APPENDIX IV: NSP ORGANIZATIONAL STRUCTURE


Figure I: NSP Organizational Structure, as of August 2010




Source: NSP data.




SIGAR Audit-11-8 Economic and Social Development / NSP      Page 33
APPENDIX V: COMMENTS FROM U.S. EMBASSY




SIGAR Audit-11-8 Economic and Social Development / NSP   Page 34
SIGAR Audit-11-8 Economic and Social Development / NSP   Page 35
SIGAR Audit-11-8 Economic and Social Development / NSP   Page 36
APPENDIX VI: COMMENTS FROM THE WORLD BANK




SIGAR Audit-11-8 Economic and Social Development / NSP   Page 37
SIGAR Audit-11-8 Economic and Social Development / NSP   Page 38
APPENDIX VII: COMMENTS FROM MINISTRY OF RURAL REHABILITATION AND
DEVELOPMENT/NATIONAL SOLIDARITY PROGRAM




SIGAR Audit-11-8 Economic and Social Development / NSP             Page 39
SIGAR Audit-11-8 Economic and Social Development / NSP   Page 40
SIGAR Audit-11-8 Economic and Social Development / NSP   Page 41
SIGAR Audit-11-8 Economic and Social Development / NSP   Page 42
                 (This report was conducted under the audit project code SIGAR-023A).




SIGAR Audit-11-8 Economic and Social Development / NSP                                  Page 43
SIGAR’s Mission                     The mission of the Special Inspector General for Afghanistan
                                    Reconstruction (SIGAR) is to enhance oversight of programs for
                                    the reconstruction of Afghanistan by conducting independent
                                    and objective audits, inspections, and investigations on the use
                                    of taxpayer dollars and related funds. SIGAR works to provide
                                    accurate and balanced information, evaluations, analysis, and
                                    recommendations to help the U.S. Congress, U.S. agencies, and
                                    other decision-makers to make informed oversight, policy, and
                                    funding decisions to:

                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.

Obtaining Copies of SIGAR Reports   To obtain copies of SIGAR documents at no cost, go to SIGAR’s
and Testimonies                     Web site (www.sigar.mil). SIGAR posts all released reports,
                                    testimonies, and correspondence on its Web site.

To Report Fraud, Waste, and         To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan                allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs             reprisal contact SIGAR’s hotline:

                                        •   Web: www.sigar.mil/fraud
                                        •   Email: hotline@sigar.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan 318-237-2575
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-604-0983

Public Affairs                      Public Affairs Officer

                                        •   Phone: 703-602-8742
                                        •   Email: PublicAffairs@sigar.mil
                                        •   Mail: SIGAR Public Affairs
                                            400 Army Navy Drive
                                            Arlington, VA 22202
